W                                                                     June 10, 1999


TO:              R/Associate Administrator for Aero-Space Technology

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Review of Advanced Air Transportation
                 Technologies Project
                 Assignment Number A9902400 (P&A-98-009)
                 Report Number IG-99-030


The subject final report is provided for your use. Please refer to the Results in Brief for the
overall review results. In response to the draft of this report, management provided minor
editorial comments, which we incorporated as appropriate.

If you have questions concerning the report, please contact Ms. Karen VanSant, Program
Director for Aero-Space Technology Audits, at (256) 544-1149, or Mr. William Falter, at
(301) 286-3356. We appreciate the courtesies extended to the staff. See Appendix C for the
report distribution.



[original signed by}
Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
G/General Counsel
JM/Management Assessment Division
bcc:

AIGA chron
R/Audit Liaison Representative
K. VanSant
W. Falter
                                                     IG-99-030




REVIEW
REPORT                      ADVANCED AIR TRANSPORTATION
                               TECHNOLOGIES PROJECT

                                     JUNE 10, 1999




                             OFFICE OF INSPECTOR GENERAL
 National Aeronautics and
  Space Administration
Additional Copies
To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits
To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W, Room 8V69
               300 E Street, SW
               Washington, DC 20546-1000

NASA Hotline
To report fraud, waste, abuse, or mismanagement, contact the NASA Inspector General Hotline at
(800) 424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.



Acronyms

AATT           Advanced Air Transportation Technologies
FAA            Federal Aviation Administration
RTCA           Radio Technical Commission for Aeronautics
                               NASA Office of Inspector General

IG-99-030                                                                                       June 10, 1999
 A9902400

                   Advanced Air Transportation Technologies Project


Introduction

The NASA Office of Inspector General completed a review of the Advanced Air Transportation
Technologies (AATT) Project. The objectives of the review were to determine whether: (1)
project objectives, milestones, and performance measures are being achieved; (2) the partner
relationship with the Federal Aviation Administration (FAA) and industry is effective; and (3) Air
Traffic Management research funds are being effectively used.

To satisfy our objectives, we reviewed project plans, milestones, and monthly reports; interviewed
management, AATT project staff, NASA Headquarters personnel, and the Director of the FAA
Research and Development Office at Ames; reviewed contractor documentation; and attended an
Interagency Integrated Product Team (Product Team)1 Technical Interchange meeting and an
Interagency Management Team meeting. We performed field work from September 30, 1998, to
March 19, 1999.


Results in Brief

The AATT Project is fulfilling the project objectives and meeting the project milestones as of
March 19, 1999. The AATT Project performance is measured by whether the decision support
tools being tested increase aviation throughput capacity and whether the project meets its
milestones. Three of the project’s decision support tools are being deployed by the FAA during
the Free Flight Phase I Project. Project milestones for 1997 and 1998 have been met in a timely
manner. NASA has a good partner relationship with FAA, due to the formation of the Product
Team, and with industry as evidenced by the work of the Product Team, the Interagency
Integrated Management Team, and the Air Traffic Management Executive Steering Committee.
The Air Traffic Management research funds are effectively used as evidenced by the findings of




1
 The FAA and NASA established the Product Team to strategically manage the research and development efforts
under the Memorandum of Understanding on Airspace System User Operational Flexibility and Productivity to
meet free flight technology needs and to provide new capabilities by the year 2005. The Product Team consists of
an Interagency Integrated Management Team and six Area Work Teams. The projects in the plan are worked
cooperatively with NASA, FAA, the MITRE Corporation, Massachusetts Institute of Technology/Lincoln
Laboratory and the Volpe National Transportation Systems Center.
the Product Team, the Air Traffic Management Executive Steering Committee,2 and the
FAA/NASA Executive Board,3 benefit studies on AATT efforts, and a review of the NASA
Research Announcement Contracts.

Background

The AATT Project is one element of the Aviation System Capacity Program managed by the
Office of Aero-Space Technology at the NASA Ames Research Center. The goal of the Program
is to develop high-payoff technologies in cooperation with the FAA and the U.S. aeronautics
industry. These technologies should benefit the civil aviation industry and the flying public by
increasing the capacity of the airspace system, increasing safety, reducing civil aircraft impact on
the environment, and ensuring that new technology development is compatible with those primary
objectives.

The primary objective of the AATT Project is to fully explore the possibilities of the "Free Flight"
concept.4 AATT products will enable substantial increases in the effectiveness of national and
global air transportation systems. These increases will be achieved by developing and testing
automation aids that can assist in the decision-making process among air traffic controllers, pilots,
and airlines’ flight dispatchers.

The AATT Project is responsible for defining, exploring, and developing advanced air traffic
system concepts to a level suitable for pre-production prototype assessment by the FAA which, if
successful, will result in full-scale deployment by the FAA. These decision support tools will
allow all airspace users to choose the best flight path for their own purposes within the constraints
of safety and the needs of other users. To do this, several goals must be met: allow users to
minimize operating costs by making trade-offs between time and routing; improve the
effectiveness of high-density operations on the ground and in the air; enable safe operation in a
smooth and efficient manner across boundaries of free flight and capacity-constrained flight
regions; provide system improvements that are easily deployable worldwide; and improve the
ability to simulate advanced capabilities in the airspace system.


Project Objectives and Milestones Are Being Achieved

The AATT Project within the Aviation System Capacity Program consists of six subelements (see
Appendix A). Each subelement manager has responsibility for a series of critical milestones that
must be met for the project to achieve its objectives. The subelement managers monitor these

2
  The Air Traffic Management Executive Steering Committee is a subcommittee of the Aeronautics and Space
Transportation Technology Advisory Committee, a standing committee of the NASA Advisory Council. The
Steering Committee is chartered to provide advice and recommendations to the Technology Advisory Committee
on NASA activities in air traffic management and related research and technology.
3
  The FAA/NASA Executive Board is responsible for the executive direction and oversight of the FAA and NASA
joint aviation and commercial space transportation research and development efforts.
4
  Free Flight is intended to be a safe and efficient flight operating capability under Instrument Flight Rules in
which the operators have the freedom to select their own path and speed in real time. Air traffic restrictions are
imposed only to ensure aircraft separation, to preclude exceeding airport capacity, to prevent unauthorized flight
through special use airspace, and to ensure flight safety.
                                                        2
milestones and provide comprehensive, monthly status reports to the Project Manager. The status
reports address both the cost and technical aspects of the respective subelements. The funding
profile for the various subelements within the AATT Project is in Appendix B.


We reviewed the Air Traffic Management Concept Definition and the Terminal/Surface Systems
and Operations subelements to determine whether project objectives are being achieved. This
review consisted of discussions with appropriate subelement managers as well as an analysis of
the respective monthly status reports and supporting documentation. In each instance, the
subelement was consistently within targeted deadlines for achieving its milestones in support of
the overall project objectives.

Also supporting the AATT objective is the deployment of three decision support tools by the
FAA during Free Flight Phase I: Traffic Management Advisor, Surface Movement Advisor, and
Passive Final Approach Spacing Tool. Both NASA and FAA have expended considerable efforts
to ensure the success of these tools. Because the technology is so complicated, the transfer of
these tools cannot be accomplished successfully without NASA's assistance. NASA has agreed to
assist the FAA with the transition. We want to emphasize the importance of NASA assisting the
FAA to ensure the decision support tools are successfully deployed. To ease the transition,
NASA is developing a technology transfer plan that will provide for coordination with the FAA
and will be consistent with the FAA technology transfer plan.


Partner Relationship with FAA and Industry

The partner relationship with the FAA and industry is effective. We based our conclusion on
discussions with NASA and FAA personnel, observation of two Product Team meetings, and
review of the activities of the Air Traffic Management Executive Steering Committee.

The AATT Project, as part of the Aviation System Capacity Program, contributes to the Aero-
Space Technology Enterprise Goal of tripling the aviation system throughput within 10 years,
while maintaining safety in all weather conditions. Both NASA and FAA support the national
safety goal to reduce the fatal aviation accident rate by 80 percent in 10 years. While both
agencies share a common mission and some aviation safety and air traffic management goals, each
has its own research roles. FAA's research is generally short-term and intended to refine existing
technology, systems, designs, and procedures that directly support its operational and regulatory
responsibilities. NASA primarily conducts basic scientific research that is focused, long-term
research and development in aeronautics and related technologies.

On November 17 and 18, 1998, we attended a Product Team Technical Interchange and an
Integrated Management Team meeting, respectively. Personnel from NASA, FAA, the MITRE
Corporation, Massachusetts Institute of Technology/Lincoln Laboratory, and Volpe National
Transportation Systems Center normally attend the meetings. The meetings are a good forum to
exchange and understand information about each organization’s progress. The exchange of
information through presentations and questions is useful for all the attendees. We believe the
meetings provide evidence that NASA coordinates and cooperates with its partners.

                                                3
Through the Air Traffic Management Executive Steering Committee, NASA has a positive
relationship with the people who operate and build aircraft and aircraft systems. The committee
consists of personnel from FAA, NASA, Department of Defense, airframe manufacturers, airline
associations, and other industry personnel. The AATT Project reports to the Steering Committee
at least twice a year and receives recommendations for the AATT Project after each meeting.
While the AATT Project is not required to implement the recommendations, it considers them and
reports on the status of the recommendations at the next committee meeting. The AATT
provides an explanation for all recommendations that are not implemented. At the last meeting,
the committee was complimentary of the AATT Project. Committee members stated that they
were "pleased to see the passion and ownership of the AATT Project and encourage NASA
managers to keep up the enthusiasm. We are counting on them."

The AATT Project personnel and the Director of the FAA Research and Development Office at
NASA Ames Research Center stated that the FAA and NASA have a good working relationship.
The Product Team has been effective in coordinating the research for the two agencies and for the
individual area work teams for each element.

Research Funds Effectively Used

NASA Air Traffic Management research funds appear to be effectively used. Our conclusion is
supported by the findings of the committees to which the AATT Project reports progress, benefit
studies on AATT technologies, and a review of the NASA Research Announcement Contracts.

The research focus of the AATT Project is affected both directly and indirectly by the Radio
Technical Commission for Aeronautics (RTCA), Product Team, Air Traffic Management
Executive Steering Committee, and the Goals Division recently formed by the Associate
Administrator of Aero-Space Technology. The RTCA is a not-for-profit industry advisory
corporation that functions as a Federal Advisory Committee and develops consensus-based
recommendations on contemporary aviation issues. The RTCA, like the Executive Steering
Committee, helps direct NASA towards the research needed by the aviation industry. The
Director of the NASA Ames Research Center is a member of the RTCA Free Flight Committee,
and the Aviation System Capacity Program Director is a member of the Steering Committee and
the RTCA Program Management Committee. As committee members, these individuals gain
insight into the type of aviation research that industry intends to develop. The committee
members then incorporate that information into NASA research projects.

The Product Team is responsible for the strategic management of joint Air Traffic Management
research and development efforts associated with the integrated plan. The plan identifies
resources and responsibilities of each agency by project. The projects in the plan are intended to
produce air traffic control decision support tools. Benefit studies are performed on all decision
support tools in an attempt to quantify capacity, flexibility, and safety impacts on the National
Airspace System. All the AATT Project research is included in the Product Team integrated plan.
Furthermore, the FAA/NASA Executive Board meets twice a year and has oversight
responsibilities of the Integrated Product Team activities. The Product Team periodically briefs
the FAA/NASA Executive Board on the status of its activities.

                                                4
In November 1998, the Office of Aero-Space Technology established a Goals Division. The roles
and responsibilities of this division are to perform strategic planning, investment planning,
outreach to industry, and advocacy. The Goals Division will also be working with FAA and
industry to determine the focus of future aviation research.

Our review of NASA Research Announcements showed no technical problems, and AATT
personnel stated that all contractors have completed their respective tasks on time and with
acceptable quality.


Summary
The AATT Project consistently achieved its milestones in support of the overall project objective
as of March 19, 1999. Supporting AATT's objective is the deployment of three decision support
tools by FAA that were developed by both NASA and the FAA. NASA has a positive
relationship with FAA and industry due to the Interagency Integrated Product Team, the
Executive Steering Committee, and the FAA/NASA Executive Board. These associations are
also responsible for the project funds being utilized effectively. FAA, NASA, and industry are
cooperating to make this a successful project.




                                                5
                                 Appendix A. AATT Organization Structure


The chart below shows the AATT Project within the Aviation System Capacity Program and identifies
each of the six subelements of the project and the approximate funds associated with each of the
subelements, estimated over the life of the Project (1996 through 2004).



                                                          Aviation System Capacity
                                                                   Program


                Advanced Air                                Terminal Area Productivity   Civil Tiltrotor
     Transportation Technologies (AATT)


     Air Traffic Management Concept Definition -- $105M

           Benefits & Safety Assessments -- $30M

            Human Factors & Operations -- $53M

       Terminal/Surface Systems & Operations -- $68M

          Enroute Systems and Operations -- $49M

          Aircraft Systems and Operations -- $43M




                                                               6
                                        Appendix B. AATT Funding Profile



The table below shows the funding of the AATT Project. Figures for fiscal years 1996 through 1998
are actual dollars (expressed in thousands), and fiscal years 1999 through 2004 are projected amounts.




             Subelements                FY96       FY97      FY98         FY99      FY00      FY01      FY02      FY03      FY04      TOTAL

Concept Definition                       $7,327     $2,730    $4,710       $7,850    $8,885   $11,505   $16,424   $25,750   $20,149   $105,330
Benefits & Safety Assessments             3,000      1,585     3,745        3,800     4,170     4,330     4,320     3,815     1,365     30,130
Human Factors & Operations                1,800      2,350     3,460        4,300     6,295     7,785    11,735     9,515     6,625     53,865
Terminal/Surface Systems & Operations     2,900      4,125     7,038        6,440     7,750     8,335    12,320    10,665     8,870     68,443
Enroute Systems & Operations                 73      3,060     4,465        3,760     4,465     7,400    10,015     8,295     7,585     49,118
Aircraft Systems & Operations               800      1,850     2,440        2,500     6,660     8,515    13,670     4,294     2,740     43,469

  Research Subtotal                      15,900     15,700       25,858    28,650    38,225    47,870    68,484    62,334    47,334    350,355

Institutional Support                          0        0             0     2,500     2,000     3,080     4,260     4,460     1,010     17,310
Program Support                                0      300         4,142     3,850     4,775     4,850     4,856     4,806     4,756     32,335

  Total                                 $15,900    $16,000   $30,000      $35,000   $45,000   $55,800   $77,600   $71,600   $53,100   $400,000




                                                             7
                              Appendix C. Report Distribution


National Aeronautics and Space Administration (NASA) Officials-in-Charge

Code A/Administrator
Code AI/Associate Deputy Administrator
Code B/Chief Financial Officer
Code G/General Counsel
Code H/Acting Associate Administrator for Procurement
Code J/Associate Administrator for Management Systems
Code JM/Director, Management Assessment Division
Code L/Associate Administrator for Legislative Affairs
Code S/Associate Administrator for Space Sciences
Code Y/Associate Administrator for Earth Science

NASA Center

Chief Counsel, John F. Kennedy Space Center

NASA Offices of Inspector General

Ames Research Center
Dryden Flight Research Center
John H. Glenn Research Center at Lewis Field
Goddard Space Flight Center
Jet Propulsion Laboratory
Lyndon B. Johnson Space Center
John F. Kennedy Space Center
Langley Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Budget Examiner, Energy Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space
Inspector General, U. S. Department of Transportation




                                            8
Appendix C
___________________________________________________________________________

Chairman and Ranking Minority Member – Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                           9
MAJOR CONTRIBUTORS TO THE REPORT
Lewis Rinker      Director, Partnerships and Alliances

Karen VanSant     Program Director, Aero-Space Technology Audits

William Falter    Team Member

Walt Curtis       Team Member

Vera J. Garrant   Acting Report Process Manager
